NO.

 

IN THE SUPREME COURT OF THE UNITED STATES
MONGKHON LEEKOMON, Petitioner,
vs.

STATE OF GEORGIA, Respondent.

 

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
COMES NOW the Petitioner, Mr. Mongkhon Leekomon; and, pursuant to
Sup. Ct. Rule 39.1, asks for leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
1) In pre-trial and trial proceedings, Petitioner was represented by appointed
counsel due to his indigent status. See, O.C.G.A. § 15-1-5; Uniform
Superior Court Rule 29.2; Hawkins v. State, 222 Ga. App. 461 (1996).
2) The Gwinnett County Superior Court in Georgia appointed the
undersigned to represent Petitioner on appeal. See, O.C.G.A. § 15-1-5;
Uniform Superior Court Rule 29.2. A copy of the appointment order is
attached as Exhibit 1.
3) Petitioner remains indigent and wishes to pursue a writ of certiorari from
this Court to the Court of Appeals of Georgia, which affirmed his judgment

of conviction on July 16, 2019 and denied his motion for reconsideration
on September 17, 2019. The Georgia Supreme Court denied his petition
for writ of certiorari on May 4, 2020.
WHEREFORE, Mr. Leekomon asks this Court to grant his motion and allow
him to proceed in forma pauperis.
Dated this 28th day of September, 2020.

Respectfully submitted,

Gaences \ous—

FRANCES KUO

Supreme Court Bar No. 299215
Frances Kuo

214 Executive Building

125 East Trinity Place

Decatur, GA 30030

Tel: (404) 378-1241
kuoappeal@gmail.com

Counsel for Mr. Mongkhon Leekomon
Case A19A0813 Filed tero/2o18 Page.1 of 1

EXHIBIT: 1°:
IN THE SUPERIOR COURT OF GWINNETT COUNTY.
STATE OF GEORGIA
STATE OF GEORGIA ) CRIMINAL ACTION
) FILE NUMBER - 16-B-00037- 40
v. )
: )
MONGKHON LEEKOMON )
Defendant )
)
)
)

APPOINTMENT OF COUNSEL FOR INDIGENT PERSON
FOR PURPOSES OF APPEAL & POST TRIAL MATTERS

The person named above has satisfied the court that s/he is financially unable to employ an
attorney and does not waive an attomey for the purposes of appellate review.

Henceforth, the attorney designated below shail represent the person and the appointment
shall remain in effect through all courts in the circuit until the case is completed or another attorney

is appointed by the Court or retained.

Said appointed counsel to replace former trial counsel, William Boddie whose motion to
withdraw is hereby granted.

Frances Kuo
GA Bar No. 430440
214 Executive Building
125 E. Trinity Place
Decatur, GA 30030
(404) 378-1241 (office)

SO ORDERED this 5 day of January 2018.

Warren Davis, Judge
Gwinnett Superior Court

YXSTY ONYHON
OE Wd S~ NYP BtOz

     

2
o
s&

cc:DA’s Office, Appointed Attorney, former counsel, Defendant, AOC

 
